No. 20-

IN THE

Oupretne Court of the ?lintteb Otatesi
INDEPENDENT SCHOOL DISTRICT No. 283,
Petitioner,
v.
E.M.D.H. EX REL. L.H. AND S.D.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,614 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 31, 2020.

e

Colin Casey ogan
Wilson-Epes Printing Co., Inc.

